<html>
<title> - THE DOMESTIC NUCLEAR DETECTION OFFICE: CAN IT OVERCOME PAST PROBLEMS AND CHART A NEW DIRECTION?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 THE DOMESTIC NUCLEAR DETECTION OFFICE: CAN IT OVERCOME PAST PROBLEMS 
                       AND CHART A NEW DIRECTION?

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                        THREATS, CYBERSECURITY,
                       AND SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2010

                               __________

                           Serial No. 111-84

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE
66-034                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a>  
2011
                               __________

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Ben Ray Lujan, New Mexico            Tom Graves, Georgia
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

                 Yvette D. Clarke, New York, Chairwoman
Loretta Sanchez, California          Daniel E. Lungren, California
Mary Jo Kilroy, Ohio                 Paul C. Broun, Georgia
William L. Owens, New York           Steve Austria, Ohio
Vacancy                              Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                Dr. Chris Beck, Staff Director (Interim)
                          Ryan Caldwell, Clerk
               Coley O'Brien, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Yvette D. Clark, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Emerging 
  Threats, Cybersecurity, and Science and Technology.............     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Emerging Threats, Cybersecurity, and Science and Technology:
  Prepared Statement.............................................     3

                                Witness

Mr. Warren M. Stern, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     6


 THE DOMESTIC NUCLEAR DETECTION OFFICE: CAN IT OVERCOME PAST PROBLEMS 
                       AND CHART A NEW DIRECTION?

                              ----------                              


                      Thursday, September 30, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Emerging Threats, Cybersecurity, and 
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:20 p.m., in 
Room 311, Cannon House Office Building, Hon. Yvette D. Clarke 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Clarke and Lungren.
    Ms. Clarke [presiding]. The subcommittee is meeting today 
to receive testimony on, ``The Domestic Nuclear Detection 
Office: Can It Overcome Past Problems and Chart a New 
Direction?''
    Good morning. I want to thank the Members of the committee 
and our witnesses for being here at this very important 
hearing.
    This subcommittee meets today to welcome Mr. Warren Stern 
as the new director of the Domestic Nuclear Detection Office. I 
think it bears emphasizing that the title of today's hearing 
is, ``The Domestic Nuclear Detection Office: Can It Overcome 
Past Problems and Chart a New Direction?''
    That pretty much sums it up, Mr. Stern. DNDO is tasked with 
arguably one of the most important National security missions 
there is--prevention of nuclear terrorism.
    There are many facets to the mission. DNDO is responsible 
for the Global Nuclear Detection Architecture, our overall 
National strategy for locating and interdicting illicit nuclear 
materials in this country. This means working with the 
Department, across agencies, with the White House, with 
Congress, and with international partners to find, deter, and 
prevent nuclear smuggling.
    You are the coordinator of the National Technical Nuclear 
Forensics Center, focused on attribution of nuclear materials 
and devices. You are responsible for supporting the operational 
entities within the Department, such as CBP, the Coast Guard, 
and the Secret Service, in carrying out their mission to stop 
terrorists with weapons of mass destruction. You are 
responsible for developing, procuring, and deploying cutting 
edge technologies to support these missions.
    The DNDO has had some low-profile successes and high-
profile failures in all of these areas. As we on this panel 
know, that is sometimes the nature of public service. Despite 
the challenges that DNDO faces, I would like to commend you, 
Mr. Stern, for your dedication to your duty to protect this 
country, as evidenced by your willingness to take on this 
difficult task within a Department that is still in transition.
    While I do assume that you understand full well that you 
have a lot of work to do and a lot of problems that need to be 
fixed, it is my responsibility as the chair of the subcommittee 
to remind you of those problems and the work you need to do 
nonetheless.
    The Advanced Spectroscopic Portal, as one major example, 
has morphed from a promising technology offering the hope of 
improved security and commercial efficiency to a symbol of 
failure for your office. You have to bring that program to a 
satisfactory conclusion, one way or another, in the very near 
future. Your credibility and the future success of DNDO depend 
on it.
    There are many other topics that I look forward to 
discussing with you, and I once again thank you for being here 
this afternoon.
    I would like to welcome today as our sole witness Mr. 
Warren Stern, the director of the Domestic Nuclear Detection 
Office at the Department of Homeland Security. Mr. Stern served 
as the head of the International Atomic Energy Agency, IAEA, 
incident and emergency center from August 2006 to March 2010, 
where he led international efforts to prepare for and respond 
to nuclear and radiation emergencies and helped create the 
IAEA's response assistance network.
    Prior to that, Mr. Stern served as a fellow in Senator 
Hillary Clinton's office in 2003, providing guidance on nuclear 
energy, waste, safety, and security issues, and helping to 
write the Dirty Bomb Prevention Act, and went on to serve as 
the Department of State's senior coordinator for nuclear safety 
and deputy director of the Office of Nuclear Energy, Safety, 
and Security.
    Mr. Stern began his career in 1985 at the Central 
Intelligence Agency, then served as the senior technical 
advisor in the U.S. Arms Control and Disarmament Agency, where 
he advised senior U.S. officials on nonproliferation and 
nuclear security issues from July 1990 until May 1999.
    Without objection, the witness' full statement will be 
inserted in the record. I now----
    Mr. Stern, if you will just indulge us just for one moment, 
my colleague, the Ranking Member of the committee, as you can 
see, has made a timely arrival just in time to give his 
statement, and so I would like to give him the opportunity to 
do so before you get into your statement.
    The Chairwoman now recognizes the Ranking Member of the 
subcommittee, the gentleman from California, Mr. Lungren, for 
an opening statement.
    Mr. Lungren. Thank you very much, Madam Chairwoman. I am 
sorry. I apologize. I did not mean any disrespect to the 
Chairwoman or to our speaker.
    I was engaged in another meeting and this thing has frozen 
up on me so many times that I should have been paying attention 
and did not check the time myself as things were going on. 
Simple statement--I meant to be here. My apologies.
    If I could just submit my statement for the record?
    Ms. Clarke. So ordered.
    [The statement of Mr. Lungren follows:]

         Prepared Statement of Ranking Member Daniel E. Lungren
                           September 30, 2010

    Thank you Chairwoman Clarke for scheduling this important hearing 
on what I believe is the most serious issue facing our Nation--a 
nuclear or radiological attack in our Homeland.
    The Domestic Nuclear Detection Office (DNDO) was established to 
help our country avoid such a tragedy by improving our detection 
capabilities and preventing a nuclear device or its radiological 
materials from being smuggled into the country.
    This on-going threat was the reason DNDO was established in 2005 to 
develop a global and domestic nuclear detection architecture and 
thereby prevent a nuclear incident. The Office has an extremely 
difficult mission--to detect and prevent nuclear materials from 
illicitly entering our borders.
    In pursuit of this mission, DNDO embarked on an aggressive program 
to develop the next generation radiation detection portal monitors--the 
Advanced Spectroscopic Portal Monitors (ASP). These monitors positioned 
at our ports of entry were expected to not only detect nuclear 
materials, as the existing PVT monitors now do, but also identify the 
type of radioactive material that was being smuggled. ASP technology, 
if proven to identify radioactive materials at our ports of entry, 
would be a significant improvement over existing systems by minimizing 
missed threats and false alarms. After 5 years of testing, the 
Secretary announced last February, because of cost and performance 
problems, that ASP will be limited to secondary screening only. Our 
taxpayers have made a huge investment in this technology and we were 
told--it's not yet ready for primary screening, if ever.
    Unfortunately, this isn't the only example of mismanaged technology 
development programs at DNDO. The Cargo Advanced Automated Radiography 
System (CAARS) was also initiated in 2005 but cancelled in 2007 because 
of poor planning and oversight. DNDO failed to effectively communicate 
with its CBP client over the operation limitations that would be placed 
on these machines. The CAARS machines would not fit within the existing 
inspection lanes at CBP ports of entry.
    Director Stern, you have a very critical job--to develop a domestic 
nuclear detection defense for our Nation. As a result of what appear to 
be earlier mismanaged opportunities, we have failed to significantly 
improve our domestic nuclear detection capability. I know this didn't 
occur on your watch, but these management deficiencies are jeopardizing 
the American people and must be eliminated. While we all want the very 
best technology, we cannot ignore the planning, testing, and oversight 
necessary to develop those technologies. Your first responsibility, 
Director Stern, should be to restore the best management and 
development practices to DNDO. This should help DNDO produce the most 
affordable and innovative radiological monitors we need and desire.
    I look forward to your testimony.

    Ms. Clarke. So, without any further delay we now will hear 
from Mr. Stern.

   STATEMENT OF WARREN M. STERN, DIRECTOR, DOMESTIC NUCLEAR 
       DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Stern. Thank you, and good afternoon, Chairwoman Clarke 
and Ranking Member Lungren.
    To the Ranking Member, I am very impressed with your 
temporal precision, but I look forward to working with both of 
you and the rest of the committee in the future.
    As the Chairwoman noted, I am the new director of the 
Domestic Nuclear Detection Office within the Department of 
Homeland Security. I appreciate the opportunity to speak today 
to testify to you, to answer your questions, to hear your 
concerns, and so share my vision for the office in the future. 
As a result of our dialogue today I hope you will conclude 
that, in fact, we are now headed in the right direction.
    As you noted, DNDO's mandate is to improve the Nation's 
capability to detect and respond to illicit movement, 
possession, storage of nuclear and illicit radioactive 
material. We have accomplished a lot, and as you, Chairwoman, 
noted, some of our problems have received a lot of attention 
and some of our successes have received very little.
    So this afternoon I would like to acknowledge some of the 
challenges we have had in the past. I would like to first 
address some of the issues that your staff has told me you are 
most interested in, but also say a few words about some of our 
successes.
    I understand that you are interested, in particular, in the 
Advanced Spectroscopic Portal device, the CAARS program, and 
the status of our strategic plan for the Global Nuclear 
Detection Architecture, so I will address those those briefly--
first, and briefly.
    Regarding the ASP, we are currently implementing 
operational and field validation testing with CBP. We expect 
these to be done early next year and we hope to, as you 
suggested, be, in essence, done with the development phase of 
the program sometime later next year. This will include after 
the operation and field testing there will be a cost-benefit 
analysis completed, which will then be presented to the 
Acquisitions Review Board within the Department of Homeland 
Security, and assuming ARB agrees with our recommendation it 
will go to the Secretary of Homeland Security for her decision 
on certification.
    Just a quick note, and as we earlier notified Congress, our 
intention is to seek certification for the use of the ASP in 
secondary and no longer in primary inspection measures. This 
relates to the concept of operations used by CBP and their 
inspections, and we have discovered through extensive testing 
that in secondary position it yields--the device yields a great 
benefit over the current technology, whereas in a primary 
inspection it does not. So we will be seeking certification in 
secondary.
    Regarding the CAARS program, which I think has received a 
lot of attention since--in particular since our hearing on the 
Senate side, I would like to inform you today that the CAARS 
program will end essentially now. The technology that has been 
developed and may be useful in other programs will be migrated 
to those other programs, but the program known as CAARS will 
terminate.
    On the strategic plan, we are working closely with our 
interagency partners so that we can have a complete and useful 
strategic plan for the Global Nuclear Detection Architecture 
delivered to Congress by the end of this year. All U.S. 
agencies and DHS components that have a role are participating. 
I have received a lot of support from each of the agencies and 
I have no doubt that we will, in fact, complete this report in 
time and it will guide our efforts into the future.
    The strategic plan is just that. It is a very high-level 
document that will address such issues as our mission, 
agreement on what the architecture actually is, where it begins 
and where it ends, what our objectives, what our goals are, 
what are metrics we can use to achieve those goals? Likely it 
will include also roles and responsibilities of each of the 
agencies. Subsequently, we will be developing more detailed 
implementation plans, written definitions of the architecture 
in technical detail, but these will all fall under the umbrella 
of the strategic plan.
    Again, as you noted, some of our problems have received a 
lot of attention; some of our successes have not. The ASP, the 
CAARS program, and the strategic plan are all very important in 
their own right but they should not be seen as a definition for 
DNDO. We have developed, over the years, a world-class testing 
and development program that other countries look to for 
assistance in their testing and development programs, and this 
testing program exists at a number of the U.S. laboratories.
    We have conducted over 48 separate, very high-definition 
tests within our program the last several years. We have 
trained State and local officials and, with other agencies, 
have succeeded in educating over 15,000 State and local 
officials throughout the country, and we have a number of 
programs related to supporting State and local officials.
    We have deployed, with Customs and Border Protection, 
nearly 15,000 portal monitors at our borders. We have, with 
also CBP, nearly 3,000 handheld detectors. We have supported 
over 25 TSA VIPR teams and radiation monitors.
    With the Coast Guard we have supported deployment of over 
6,500 detectors and we have helped the development of radiation 
detection capabilities in 39 different regions within the 
United States. As you noted also, we have the role of 
coordinating technical nuclear forensics development within the 
United States, and that capability is looked to, again, by 
other countries and by other U.S. agencies.
    So the programs that have received the most attention are 
important. We are doing what we can to turn those around and to 
terminate the ones that should be terminated, but we have also 
accomplished a lot in the past 5 years.
    But, as you noted, I am also new and I have my own views on 
where we should go, and I do believe that we can turn our 
efforts in a slightly different direction. I see the specific 
path forward as completing the near-term programs that have 
received so much attention.
    We hope next year to complete the ASP--the development 
phase of the ASP program and made a decision on whether to 
deploy or not. We, as I mentioned, will terminate the CAARS 
program; and we will complete the strategic plan of the Global 
Nuclear Detection Architecture. But in order to move beyond 
these we have to, as you noted, complete them, and we will.
    We also, early next year, will begin to deploy the next 
generation of handheld detectors in Customs and Border Patrol, 
and a number of other U.S. Government agencies will begin to 
use those, and into 2012 we look to deploy technology that will 
help to relieve some of the helium-3 shortage issues we have 
had in the past.
    We will also continue to develop many of the more advanced 
technology that you have heard of, so I believe we are at a 
turning point and we are beginning to move in the right 
direction. In terms of my personal views that will translate 
into reality now that I am in DNDO, I believe we need to place 
greater emphasis on the architecture--the Global Nuclear 
Detection Architecture. I am not sure we have done that in the 
past.
    To me, the architecture for DNDO is a great challenge--our 
greatest challenge--but it is also our greatest strength. It is 
the one area where we clearly lead and we need to focus more 
attention on that, beginning with a strategic plan and, as I 
mentioned, developing more detailed documents that can be used 
in a rational, logical way to ultimately guide our deployment 
into the future.
    I also believe that we need to place greater focus on 
programs that aid State and local officials. We have certain 
assumptions in what we have done regarding how we will 
ultimately find threat material, and I think those assumptions 
need to change a little bit and we need to begin to look more 
within the United States and not just at our borders, and that 
means focusing more on supporting State and local officials in 
their development of capabilities to detect and respond to 
radiation emergencies.
    Finally, I think that we intellectually need to look at the 
lessons we have learned in the past--not just the procurement 
lessons, which I think we have already begun to do in terms of 
the large procurement programs like ASP, but also in terms of 
how we define our strategy.
    We don't have any cases of illicit movement of nuclear 
material at U.S. borders or within the United States, but there 
are small but significant cases abroad, and I think we need to 
look very carefully at how those cases came to be, where the 
material came from, and in particular, how they were detected, 
and I think those lessons will help us guide the development of 
our strategy.
    So this concludes my initial prepared statement, Chairwoman 
Clarke and Ranking Member Lungren. Again, I appreciate the 
opportunity to present it to you, especially on this wet and 
windy Washington day. I am very happy to answer any questions 
you may have, and I look forward to working with you in the 
future.
    [The statement of Mr. Stern follows:]

                 Prepared Statement of Warren M. Stern
                           September 30, 2010

    Good afternoon Chairwoman Clarke, Ranking Member Lungren, and 
distinguished Members of the subcommittee. As Director for the 
Department of Homeland Security's (DHS) Domestic Nuclear Detection 
Office (DNDO), I am here today to describe the work we have done at 
DNDO to reduce the risk of nuclear terrorism. We know that this mission 
is of critical importance to the committee, as it is to the Department 
and the Nation. As a result of today's hearing, I hope that you will 
agree that DNDO's efforts are increasing our country's security.

                   DOMESTIC NUCLEAR DETECTION OFFICE

    On April 15, 2005, President Bush signed National Security 
Presidential Directive-43 and Homeland Security Presidential Directive-
14 directing the Secretary of Homeland Security, in coordination with 
the Secretaries of State, Defense, and Energy, and the Attorney 
General, to establish a jointly-staffed, National-level Domestic 
Nuclear Detection Office (DNDO) within the Department. Subsequently, 
the SAFE Port Act of 2006 formally codified the DNDO and added a 
Presidentially-appointed Director.
    DNDO's mandate is to improve the Nation's capability to detect and 
report unauthorized attempts to import, possess, store, develop, or 
transport nuclear or radiological material for use against the Nation, 
and to further enhance this capability over time. With assistance and 
participation from a wide variety of U.S. Government departments and 
agencies, DNDO synchronizes and integrates inter-agency efforts to 
develop technical nuclear detection capabilities, characterizes 
detector system performance, ensures effective response to detection 
alarms, integrates nuclear forensics efforts, coordinates the global 
detection architecture and conducts a transformational research and 
development program for advanced technology to detect nuclear and 
radiological materials.
    I would like to take some time to discuss several of our high-
profile programs, including the Advanced Spectroscopic Portal (ASP) 
program, the Cargo Advanced Automated Radiography System (CAARS) 
program, and the status of the overarching strategic plan for the 
Global Nuclear Detection Architecture (GNDA).

              ADVANCED SPECTROSCOPIC PORTAL (ASP) PROGRAM

    In 2005, DNDO embarked on an aggressive program to develop the next 
generation radiation portal monitor to address key detection gaps. The 
ASP program was one such effort; at that time, we set a schedule 
without sufficiently accounting for technical risk, which has caused a 
number of delays. We have accepted many of the Government 
Accountability Office's (GAO) recommendations and have substantially 
improved program management and oversight. Under the leadership of the 
Under Secretary of Management, the Department has developed Acquisition 
Directive 102-01, which gives us greater insight into all acquisition 
programs in the Department, and which we have leveraged to 
significantly improve the ASP program.
    The ASP program is approaching a key decision milestone. DNDO and 
CBP are currently working together to resume field testing in October. 
Upon successful completion, DHS will finalize the cost-benefit analysis 
and proceed to the Acquisition Review Board (ARB). The ARB will make 
its recommendation to the Secretary on ASP certification. We continue 
to believe that if certification is realized, the ASP deployment will 
enhance DHS' capabilities at the border to counter nuclear threats 
without impeding the flow of commerce.
    It is important to note that we will seek certification for the ASP 
in secondary scanning only. While ASP serving in primary scanning was 
once considered, ASP's demonstrated performance to date and DNDO's 
preliminary cost-benefit analysis suggest ASP would be best utilized in 
secondary scanning.

              CARGO ADVANCED AUTOMATED RADIOGRAPHY SYSTEM

    To complement passive detection systems, DNDO also embarked on an 
ambitious program to develop advanced radiography systems. The CAARS 
program sought to develop and demonstrate non-intrusive inspection 
technology that could automatically identify dense materials used to 
shield special nuclear and threat materials in cargo. In 2007, DNDO 
recognized that the CAARS technology was not as mature as originally 
anticipated. Accordingly, DNDO scaled the program back from an 
acquisition program to a research and development program. The CAARS 
program is now designed to demonstrate the potential future capability 
of the technology through the development and evaluation of prototype 
systems.
    The CAARS research and development program has nearly reached its 
conclusion. While it will not continue, a decision regarding the future 
direction of the relevant technology is pending the CAARS final report, 
expected later this year. DNDO will use technologies developed in the 
program to advance other research and development efforts and will 
continue to test commercially available non-intrusive imaging systems. 
Development of improved algorithms to address shielded nuclear material 
will also continue as part of DNDO's Advanced Cargo Imaging program. 
Additional work to build upon what we have learned from the CAARS 
technology will be included in DNDO and CBP's participation in the DHS 
Science and Technology Directorate's CanScan program.

                          GNDA STRATEGIC PLAN

    One of DNDO's core mandates is to develop a Global Nuclear 
Detection Architecture (GNDA). The GNDA is a risk-informed, 
multilayered network to detect illicit radiological and nuclear 
materials or weapons. This involves interagency and DNDO efforts for 
the development and deployment of effective detection solutions within 
the United States and abroad, maintaining situational awareness, 
working collaboratively and integrating with the intelligence 
community, and sharing critical information related to detection.
    GAO has highlighted, and Congress has reinforced, that the GNDA 
should have a strategic plan to guide its implementation. We agree and 
are working with other DHS components to rapidly complete a strategic 
plan for the GNDA, with an interagency Assistant Secretary-level 
committee providing guidance and oversight. The GNDA Strategic Plan 
will be the first important step to define and form the GNDA in the 
future, and will include a description, a vision statement, and time-
phased goals, objectives, and performance metrics. The strategic plan 
will articulate what the GNDA must accomplish and outline its 
development and implementation.
    DNDO will complement the GNDA strategic plan with a revised GNDA 
annual review report on the Joint Interagency Review of the GNDA, as 
required by Congress, which will provide a means to document and track 
progress to assist DNDO and the interagency in developing and refining 
the GNDA. The GNDA strategic plan and annual report will be jointly 
produced and agreed upon by the interagency, enabling a coordinated 
implementation of the GNDA.

                             DNDO PROGRESS

    While they are some of the most discussed aspects of our work, ASP, 
CAARS, and the GNDA strategic plan do not define DNDO. Under its 
mandate to develop a GNDA and implement the domestic nuclear detection 
architecture, DNDO has created programs supporting Federal, State, and 
local agencies and foreign governments within its core competence of 
nuclear detection. At our borders, DNDO works with CBP to deploy 
nuclear detection technologies at ports of entry and for the Border 
Patrol. Working with our partners, DNDO has executed pilot programs to 
evaluate nuclear detection equipment and operations in maritime and 
aviation environments. Furthermore, DNDO has produced a world-class 
development and testing program for radiation detection systems and has 
become a coordinating entity for U.S. Government technical nuclear 
forensics efforts. We have made progress in implementing and supporting 
the GNDA as follows.

Interior
    Building upon the layered structure of the GNDA, DNDO works within 
the Nation's borders to develop radiological and nuclear detection 
capabilities for urban areas, internal transportation vectors, special 
events, and other State and local venues. DNDO works regularly with 
Federal, State, local, and Tribal entities to integrate nuclear 
detection capabilities in support of the GNDA. Our ``Securing the 
Cities'' (STC) initiative, piloted in the New York City (NYC) region, 
has brought together law enforcement and first responders to design and 
implement a layered architecture for coordinated and integrated 
detection and interdiction of illicit nuclear and radiological 
materials.
    STC involves 13 State and local partners, who represent over 150 
jurisdictions in the New York City region, as well as the Department of 
Energy, FBI, and the Nuclear Regulatory Commission. The STC pilot 
program provides assistance to State and local jurisdictions, which 
enable these entities to build and sustain capabilities by: Leveraging 
current technologies and deploying them regionally in a coordinated 
manner; designing, acquiring, and deploying the components of an 
operationally viable regional architecture for radiological/nuclear 
detection focused on State and local jurisdictions; developing and 
implementing a common, multi-agency concept of operations (CONOPS) for 
sharing sensor data and resolving alarms; and instituting training and 
exercising by the regional agencies to execute the CONOPS at a high 
level of proficiency. Once capabilities are developed, DNDO will assist 
regional partners in building a self-supported sustainment model 
allowing for real-time sharing of data from fixed, mobile, maritime, 
and human portable radiation detection systems. DNDO plans to evaluate 
the STC pilot initiative in fiscal year 2011 to assess the detection 
capability established in the New York City region and extract the 
lessons learned from the pilot. DNDO will continue to support the NYC 
region with experienced program management and subject matter experts 
in radiological and nuclear detection technologies and operations, and 
we will be actively supporting a regional full-scale exercise in 2011.
    Within the United States, DNDO works with the Transportation 
Security Administration's (TSA) Visible Intermodal Prevention and 
Response (VIPR) teams to enhance security on aviation, rail, mass 
transit systems, and maritime venues Nation-wide. VIPR teams have 
augmented security at key transportation facilities in urban areas 
around the country and work with local security and law enforcement 
officials to supplement existing security resources, provide detection 
capabilities, and a deterrent presence, and introduce an element of 
unpredictability to deter and disrupt potential terrorist activities. 
Currently, all VIPR teams are equipped with human portable radiological 
and nuclear detection systems. Through September 22, 2010, TSA has 
conducted 1,219 VIPR operations that have utilized radiological and 
nuclear detection equipment.
    DNDO's outreach also includes a State and Local Stakeholder Working 
Group with 25 States and territories meeting quarterly to bring the 
Nation's radiological and nuclear detection community together, inform 
participants on activities within DNDO and the community, and obtain 
feedback on DNDO's programs and initiatives. DNDO has conducted Nation-
wide radiological and nuclear detection situational awareness briefings 
with 52 Urban Area Security Initiative (UASI) regions and metropolitan 
region emergency responder and law enforcement agencies.
    DNDO has also created a Preventive Radiological and Nuclear 
Detection Program Management Handbook created for State and local 
authorities, which provides consistent guidance for building or 
enhancing State and local radiological and nuclear detection programs. 
Together with our Federal partners, DNDO provides technical input, 
review, evaluation, and developmental improvement to the preventive 
radiological and nuclear detection training curriculum. Since 2005, 
DNDO has facilitated the training of more than 15,000 law enforcement 
officers and public safety professionals in radiological and nuclear 
detection operations.
    Providing support to the operators of radiological and nuclear 
detection equipment is critical to an effective architecture for 
detection. The DNDO Joint Analysis Center (JAC) is an interagency 
coordination and reporting mechanism and central monitoring point for 
the GNDA. The JAC coordinates adjudication of nuclear detection events, 
analyzes intelligence and sensor information, and facilitates technical 
support for Federal, State, and local authorities. JAC staff partner 
with the DHS Office of Intelligence and Analysis to produce relevant 
intelligence-based analytical products, and develop linkages to State 
and local fusion centers for information sharing.

Ports of Entry
    The U.S. border is a key point at which where the United States has 
full control over detection and interdiction. DHS has made a 
considerable effort at the border to provide comprehensive radiation 
detection capabilities with an initial majority of resources 
concentrated at ports of entry. DHS has focused on these authorized 
pathways at ports of entry, underscored by the SAFE Port Act's 
requirement that ``all containers entering the United States through 
the 22 ports through which the greatest volume of containers enter the 
United States by vessel shall be scanned for radiation.'' A key 
consideration is the need to effectively detect threats without 
impeding the flow of commerce across the border. In 2005, when DNDO was 
first established, there were a total of 552 radiation portal monitors 
(RPMs) at our land and seaports of entry. As of this July, there are a 
total of 1,426 RPMs. Our on-going work with CBP to facilitate container 
security has resulted in the scanning of over 99 percent of all 
incoming containerized cargo for radiological and nuclear threats at 
our land and seaports of entry. As this work has matured over the last 
few years, DNDO has shifted its workforce to place a greater emphasis 
on our land borders between ports of entry, maritime, air, and the 
interior.

Non-POE Land Border
    DNDO has been working on a cooperative effort with the CBP Office 
of Border Patrol (OBP) to develop a strategy for deploying a 
radiological and nuclear detection capability that is focused on those 
areas between the official ports of entry along our land borders. Under 
the Phased Deployment Implementation Plan, DNDO and OBP have evaluated 
selected radiation detection equipment and their concept of operations. 
Indeed, the very presence of BP Officers on the border, performing 
their duties with regard to enforcing immigration laws and preventing 
smuggling, is a significant defense and deterrent against nuclear 
smuggling whether or not they carry radiation detectors. This is an 
example of how the normal activities of the Department contribute to 
the prevention of nuclear terrorism.

Maritime
    In the maritime environment, DNDO has worked closely with the 
United States Coast Guard (USCG) and CBP Office of Air and Marine (OAM) 
to provide radiological and nuclear detection capabilities. Through the 
USCG Joint Acquisition Strategy, DNDO has equipped and trained USCG 
boarding teams with detection technologies, and budgeted funds to 
recapitalize existing USCG equipment and to acquire newly developed 
systems. DNDO has also trained CBP OAM boarding teams and worked to 
develop, acquire, and recapitalize CBP equipment.
    DNDO has also established the West Coast Maritime Pilot (WCMP) to 
work with authorities in Washington's Puget Sound and the San Diego 
area to design, field, and evaluate a radiological and nuclear 
detection architecture (specific to each region) that reduces the risk 
of radiological and nuclear threats that could be illicitly transported 
on recreational craft or small commercial vessels. The project develops 
radiological and nuclear detection capabilities for public safety 
forces to use during routine public safety and maritime enforcement 
operations. One immediately recognizable lesson learned of the WCMP is 
the value of the Maritime Transportation Security Act creation of Area 
Maritime Security Committees (AMSC). WCMP efforts were coordinated 
through the respective AMSC in the region, both of which established 
subcommittees for the preventive radiological and nuclear detection 
mission.
    DNDO continues to work with Federal, State, local, and Tribal 
participants in support of the WCMP efforts. CBP OAM and USCG will 
continue to determine the best methodology for screening vessels based 
on resources, geographic considerations, and security levels. The 
lessons learned from the WCMP, particularly with regard to maritime 
chokepoint operations, will inform and improve standard operating 
procedures.
    In addition to this pilot, we have tested boat-mounted detection 
systems. Results of the fiscal year 2008 ``Crawdad'' Maritime test 
campaign and early deployments of selected systems in the West Coast 
Maritime Pilot in Puget Sound will shape the identification of an 
effective boat-mounted radiation detection system. DNDO also conducted 
the Dolphin Test Campaign to characterize several commercial off-the-
shelf (COTS) and Government off-the-shelf (GOTS) systems in the spring 
of this year and is analyzing the results. If we can demonstrate that 
operational and technical requirements of the maritime mission area can 
be met by COTS/GOTS boat-mounted systems, they may be incorporated into 
DHS acquisition programs. If not, DNDO will launch a program to develop 
and test a prototype system that is both effective and suitable for 
this mission.

Aviation
    DNDO has similarly expanded efforts to secure the air pathway--both 
commercial and general aviation. To address radiological and nuclear 
threats in aviation, DNDO is working with CBP to enhance capabilities 
to detect and interdict illicit radiological and nuclear weapons or 
materials entering the United States via international general 
aviation. These efforts have included a test campaign with CBP officers 
at Andrews Air Force Base in 2008 that analyzed CBP's radiological 
scanning capability and identified methods to improve effectiveness by 
enhancing equipment and operational techniques. As a result of these 
efforts, 100 percent of international general aviation flights are 
scanned for radiological and nuclear materials by CBP upon arrival in 
the United States. Also in partnership with CBP, DNDO has developed a 
pilot to detect and interdict illicit radiological and nuclear weapons 
or materials entering the United States via the commercial aviation 
pathway. The Pax/Bag (passenger/baggage) Pilot was conducted during 
fiscal year 2010 at the Seattle/Tacoma and Charlotte airports to 
evaluate radiological and nuclear scanning capability for passengers 
and baggage entering into the commercial airport environment from 
overseas. The results of the pilot program will inform future 
deployment strategies for airports and will provide input for research 
and development efforts to optimize radiological and nuclear scanning 
of passengers and their baggage in the airport environment.
    Additional architecture studies will examine the aviation 
environment holistically--looking simultaneously across multiple 
aviation operations such as movement of passengers, baggage, cargo, and 
the aircraft themselves. As with other domains, the application of 
random, agile, and mobile solutions will create uncertainty in the 
adversary across the various aviation operations. This approach will 
also incorporate the detection and deterrence benefits provided by non-
radiological and nuclear security measures already in place, such as 
scanning checked luggage with automated explosive detection machines. 
This holistic approach examines the intersection of multiple aviation 
pathways, including the commonality of systems and processes that can 
be leveraged and shared.

Testing
    DNDO has also established the U.S. Government's premier 
radiological and nuclear detection system test and evaluation 
organization. DNDO has conducted 48 separate test and evaluation 
campaigns at more than 20 experimental and operational venues. These 
test campaigns were planned and executed using rigorous, reproducible, 
and peer-reviewed processes. Tested detection systems include pagers, 
handhelds, portals, backpacks, mobiles, boat- and spreader bar-mounted 
detectors, and next-generation radiography technologies. The results 
from DNDO's test campaigns have informed Federal, State, local, and 
Tribal operational users on the technical and operational performance 
of radiological and nuclear detection systems to help select the most 
suitable equipment and effective CONOPs as we work to keep the Nation 
safe from nuclear terrorist threats.
    DNDO constructed and operates the state-of-the-art Radiological and 
Nuclear Countermeasures Test and Evaluation Complex (RNCTEC) at the 
Nevada National Security Site (N2S2) to allow testing against 
significant threat quantities of special nuclear material. Further, 
DNDO established the Rail Test Center (RTC) at the Port of Tacoma in 
Washington State to conduct testing in an operational port environment. 
DNDO's testing expertise and experience is sought by interagency 
partners, such as the Departments of Energy and Defense, and 
international partners such as the United Kingdom, Canada, Israel, the 
European Union, and the International Atomic Energy Agency (IAEA). DNDO 
has recently entered an active partnership with the European 
Community's Joint Research Center to conduct the Illicit Trafficking 
Radioactive Assessment Program+10 (ITRAP+10), an ambitious 3-year test 
program to evaluate nine classes of radiological/nuclear detection 
systems in U.S. and European test facilities.

Research and Development
    To support basic research and the long-term development of systems 
with increased capabilities, DNDO is conducting R&D using advanced 
compact high-performance handheld systems; advanced passive standoff 
detection technologies; improved detection through networked and 
distributed detection systems; better detector materials; and improved 
material attribution and radiochemistry. Additionally, DNDO is pursuing 
targeted technologies for the detection of shielded special nuclear 
material through passive and active interrogation programs and 
development of key supporting systems for varied deployment schemes.
    Underlying these efforts is our work to ensure a continued pipeline 
for human capital development and basic research, executed through 
DNDO's partnership with the National Science Foundation for the 
Academic Research Initiative. To date, the Academic Research Initiative 
has awarded 36 grants to 27 Universities. DNDO will continue to 
collaborate on these longer term research and development activities as 
the transformational research and development programs transition to 
DHS's Science and Technology Directorate pending Congressional approval 
of the fiscal year 2011 budget.

Nuclear Forensics
    DNDO's National Technical Nuclear Forensics Center (NTNFC), has 
also done an impressive job coordinating and advancing U.S. Government 
technical nuclear forensics efforts. Established in 2007, the NTNFC 
serves as a National-level ``system integrator'' for joint planning, 
exercising, and evaluating our National capabilities, while also 
investing in technical capability advancement. The NTNFC led the 
interagency effort to develop the ``National Strategic 5-Year Plan for 
Improving the Nuclear Forensics and Attribution Capabilities of the 
United States,'' which was signed by the President and submitted to 
Congress in April. U.S. policy emphasizes that any nation or group that 
enables a terrorist to acquire nuclear devices or materials will be 
held accountable. Robust forensics and attribution capabilities help to 
underwrite this policy.

                              PATH FORWARD

    I look forward to continuing our work with our partner U.S. 
agencies and Congress to prevent nuclear terrorism. We will complete 
the ASP program so that a final decision on certification can be made; 
we will end the CAARS technology demonstration this fiscal year; and we 
will complete the GNDA strategic plan. Further, we will continue to 
develop technologies and systems that will address gaps in our 
capabilities to detect threats. Our development of new neutron 
detection technology to replace helium-3 detectors will mitigate the 
impact of the helium-3 shortage by decreasing and ultimately 
eliminating the need for helium-3 in our radiation portal monitors. To 
support operators in the field, DNDO will purchase current and next-
generation handheld systems for use by CBP, USCG, and TSA. DNDO also 
will work with State and local agencies to establish new radiological 
and nuclear detection programs in urban areas and train more than 4,000 
additional law enforcement and emergency management officials in fiscal 
year 2011.
    We will continue to work on next-generation human portable 
detectors for varied applications, including a focus on systems with 
new detector materials and advanced algorithms, as well as smaller, 
more capable systems. DNDO plans include the potential development of 
helicopter-mounted, boat-mounted, and long-range radiation sensors to 
allow more flexible operations. We will also continue our important 
test and evaluation collaborations with Federal and international 
partners. We will focus on addressing challenging operational 
environments, such as international rail and break-bulk cargo, to 
increase our ability to scan for radiological and nuclear threats.
    Overall, we will place much greater emphasis on defining the GNDA, 
both as it exists now and as we would like it to exist in the future. 
The responsibility to define the architecture is DNDO's greatest 
challenge and its greatest opportunity. Over the next several years, 
our long-term architectural vision can be characterized by several 
common themes that apply across all layers. In every layer and pathway, 
we will seek to increase detection coverage and capability, deter 
terrorists from planning or attempting nuclear terrorism, introduce as 
much uncertainty as possible in the minds of the adversaries with 
regard to the risk of interdiction, and take maximum advantage of pre-
existing activities that can contribute to the overall capability to 
prevent nuclear terrorism.
    In parallel, we will look carefully at the lessons we have learned 
from past cases related to the illicit trafficking of nuclear and other 
radioactive material. While there have been no cases within U.S. 
borders, we have evidence of small but significant cases overseas. We 
must continue to look at how illicit trafficking takes place and refine 
our strategies accordingly. While this analysis is still incomplete, I 
believe it will improve law enforcement efforts within the United 
States.
    I anticipate that future implementations of the GNDA will emphasize 
mobile or agile detection components, which will increase our 
capability to respond to escalated threat levels by focusing or surging 
detection assets to interdict these threats. I recognize the important 
contributions that other U.S. Government agencies and Congress make in 
accomplishing the mission to prevent nuclear terrorism and I am 
committed to working in coordination with all parties to develop 
effective strategies and technologies.
    My vision of DNDO is that of a highly competent agency that has a 
broad spectrum of capabilities including nuclear detection, reporting 
and analysis specialties, and nuclear forensics. My expectation is 
that, over time, we will develop a reputation that allows us greater 
leverage in defining detection architecture throughout the world. We 
have made some significant steps in this regard. For example, under the 
President's Global Initiative to Combat Nuclear Terrorism, DNDO 
coordinated the international development of the Model Guidelines 
Document for Nuclear Detection Architectures. This document promotes 
the development of National nuclear detection architectures and 
capabilities to combat the illicit trafficking of nuclear and 
radioactive materials, weapons, and components. While this is an 
important achievement, I recognize that there remains room for growth.
    Chairwoman Clarke, Ranking Member Lungren, I thank you for this 
opportunity to discuss the status of DNDO. I am happy to answer any 
questions the subcommittee may have.

    Ms. Clarke. I would like to thank you for your presentation 
and testimony here today, and frankly, found your candor very 
refreshing and look forward to continued dialogue as well. I 
want to thank you for your testimony.
    I am going to remind my colleague that we will have 5 
minutes to question Mr. Stern, but I think we can use more time 
given the fact that it is just you and I.
    I will now recognize myself for questions.
    Mr. Stern, in your testimony you stated that the ASP 
program is approaching a key decision milestone. DNDO and CBP 
are currently working together to resume field testing in 
October. It was my impression that testing was finally to 
conclude on the ASP at the end of this month.
    What is this round of testing for? Will that be it for 
testing? What if the test should fail?
    I will strongly caution you that proposing several more 
rounds of testing is not going to go over too well with me, my 
Ranking Member, or other Members of this subcommittee, so I 
just wanted to get some feedback from you on that.
    Mr. Stern. Thank you for the question, Chairwoman. I would 
like to begin by explaining that there are really two types of 
what we call testing, and they go for different names. One is 
on the technical end, and that is to see if the device will 
find the material that we are looking for, and that we have 
spent a lot of time and money on, and that is what helps us 
conclude that, in fact, there is a benefit--substantial--in 
secondary inspection but not in primary inspection.
    The other type of testing is more of a validation and an 
operational testing to make sure that it fits reasonably well 
within the process that the end user--in this case Customs and 
Border Protection--within their process, without unduly 
interfering with what otherwise happens and our ports of entry 
and other locations.
    So we are done with the technical testing. What we are 
doing now, and we have actually been through before, we are 
doing more the operational and the field testing, and this is 
an iterative process, so I think it is highly likely that we 
are, in fact, at the end, because again, for the field 
validation we have been through this before. We learn; we tweak 
the system; and then we bring it back to make sure it has fixed 
the operational problems that we have had before.
    So this isn't, as you noted, the last time we are at--this 
isn't the first time we are at this point, but this is the 
process. It is iterative. We are done with the technical 
testing. We are making sure that it operates the way it needs 
to operate, that the inspectors can use it, that it doesn't 
unduly alarm, that it is not confusing, that it doesn't impede 
the flow of traffic unnecessarily.
    While it is a test, so I can't confirm that it will pass 
that test, otherwise, of course, there would be no need for the 
test, but I do feel that we are at the end of this process 
because we have been through this iterative cycle and we think 
we understand all of the problems that have been identified 
before. So we do believe that this coming year, this--well, 
this fiscal year, actually, we will be able to make a decision 
on the ASP one direction or another.
    But again, I caution you that I can't guarantee you that we 
will pass the test, if you will, instead of having to go back 
and tweak something because, again, that is what the test is 
for, to make sure that it works the way we need to. But I do, 
as I think you suggested you do also, want to move beyond the 
ASP because that should not be seen as defining DNDO.
    Ms. Clarke. Let me ask you, you have been able to 
determine, through a detectable testing, that the ASP had a 
secondary screening use. Ultimately, do you see DNDO qualifying 
that as significant, and what is that significance if that is 
the case?
    Mr. Stern. Thank you, Chairwoman. Yes, there is a 
significant benefit in secondary, and using it in secondary is 
an important role. The concept of operations used by CBP at 
most ports is that the conveyances are first put through a more 
general device that examines whether radiation levels are too 
high or too low--or rather too high.
    If, in fact, they reach a certain level they are then sent 
over to secondary inspection to find out if the reason the 
radiation levels are too high are because of some legitimate 
use of medical isotope, or many commercial materials have some 
level of radioactivity, or whether it is a threat material. So 
yes, that role in secondary is important.
    It was always envisioned, actually, as a possibility from 
the beginning of the ASP project--it was initiated with the 
possibility of using ASP either in secondary or in primary 
inspection. As discussion proceeded, it was--its primary 
inspection has greater focus but it was never--the secondary 
role was never ignored.
    Again, the use of the term ``secondary'' sometimes comes 
across as pejorative, as if, well if you can't use it in 
primary we will use it in secondary, but that is not really the 
way we look at it or the way it is. In fact, secondary is a 
very important role within the concept of operations of the 
CBP, and this is the role it will likely play.
    Ms. Clarke. As you probably know, Mr. Stern, I am a New 
Yorker and I have been a strong supporter of the Securing the 
Cities, STC, program in New York. Last year the DNDO budget did 
not contain any funding for STC. The stated reason was that 
DNDO thought that the program was far enough along that local 
funding could sustain it, and I can tell you that it is not 
what I or the other members of New York's delegation were told 
by the NYPD and others, and we would support an amendment to 
restore funding for the STC in the fiscal year 2011 
appropriations bill.
    What are your intentions this year regarding the STC 
funding?
    Mr. Stern. Thank you. Just as a side note, I actually on 
Monday was able to go up to New York City and view some of the 
participants and the capabilities developed within the STC 
program, and I was incredibly impressed with the level of 
competence and dedication at the New York Police Department and 
the officials involved in the program. I actually never really 
thought that I would see a police force that knew how to use 
radiation detection devices, and knew how to read them, and 
knew what these meant. So I was very impressed with the people 
that I met there.
    We have a challenge in the sense that the STC was always 
envisioned as a pilot program, 3 to 4 years, to see if, in 
fact, we could reach certain milestones, and the intention in 
fiscal year 2011 now is to evaluate the progress that was made 
in the past in this program to see whether we should proceed in 
the future. The question of whether STC will proceed or not is 
only part of the question because we at DNDO view--and I view--
support of State, local, city officials in detecting nuclear 
material to be a fundamental part of our obligation and our 
role.
    The question of whether this particular program proceeds 
will depend in part on the outcome of this evaluation, but it 
was always intended to be a pilot program to see if we can 
create self-sustaining infrastructures, and that is one of the 
things that will be measured.
    Ms. Clarke. When do you envision this evaluation commencing 
and ending?
    Mr. Stern. We don't have a precise timeline, but it will be 
during this--well, the next fiscal year, fiscal year 2011--it 
will begin and commence.
    Ms. Clarke. One part of your testimony gave me considerable 
pause. You stated, ``DNDO has also established the U.S. 
Government's premier radiological and nuclear detection system 
test and evaluation organization. DNDO has conducted 48 
separate test and evaluation campaigns at more than 20 
experimental and operational venues,'' and, ``to support basic 
research and the long-term development of systems with 
increased capabilities, DNDO is conducting R&D using advanced 
compact high-performance handheld systems, advanced passive 
standoff detection technologies.''
    This seems to go against the entire reorganization where 
basic and transitional research and development activities as 
well as performance were moved from DNDO to the science and 
technology directorate. This was done for good reason, the most 
well-known being the continued problems with research, 
development, and testing of the Advanced Spectroscopic Portal--
excuse me. So does your testimony indicate that we are going 
back to the bad old days, or would you just want to give me 
some----
    Mr. Stern. No. We are not going back to the bad old days, 
as you called them. This is, in my view, a turning point.
    The explanation is perhaps two-fold. One is, of course, 
that the--under the law the transfer hasn't--occurs when the 
budget is approved. But the other is, of course, that--and this 
is a rather complicated issue that has taken me quite some time 
to understand, but within the testing of devices there are a 
variety of different phases of testing and ways of approaching, 
and it has always been envisioned, and the role of S&T--the S&T 
under secretary overall is essentially regulating the testing.
    So the testing of devices is still performed and has always 
been performed outside of the directorate TAR that you 
mentioned, and that would continue. But under the new law we 
would fully transfer the transformation research and 
development, the TAR directorate, to S&T, as envisioned by 
Congress.
    Ms. Clarke. I now yield to our Ranking Member, Mr. Lungren, 
for his questions at this time.
    Mr. Lungren. Thank you very much, Madam Chairwoman.
    Mr. Stern, thank you very much. I realize you have only 
been in this position a short time so I hope my questions 
aren't unfair.
    You talked about the CAARS program. You talked about how it 
is being ended now--I presume you mean now.
    What did we learn out of that? I mean, what did we learn 
out of the mismanaged technology development program known as 
CAARS?
    Was it poor planning and oversight? Was it one part of the 
operation not communicating with the other part of the 
operation? Was it an idea that was a bad idea? Was it failure 
to communicate with the CBP?
    Was it someone at the front end not understanding what you 
were going to do at the back end to design something that 
doesn't fit the need? Seems to be elementary; maybe I am making 
it too simple. But are there lessons learned to ensure that we 
won't repeat this kind of thing again?
    Mr. Stern. Thank you, Ranking Member Lungren. Yes, there 
are definitely lessons learned, and I will elaborate a few of 
them in a moment, but first I would like to make sure--clear 
that the need for a technology to meet the objectives of the 
CAARS program existed, and it actually still exists, and it is 
why I mentioned some of the more useful technologies will be 
migrated to other programs----
    Mr. Lungren. Right, but who determines that need? Who tells 
you of the need?
    Mr. Stern. We define the materials that need to be detected 
and the--we being DNDO--and the----
    Mr. Lungren. Right.
    Mr. Stern [continuing]. Approaches that are useful to find 
those materials.
    But if I could go on, there clearly were many steps that 
were taken that were the wrong steps, and there are two key 
lessons for me that I take away, and I think we as a 
Department, also. The first is the need for more intense, 
better cooperation and coordination early on. As you noted 
correctly, there wasn't such coordination and the program got 
off track and it didn't satisfy--and wasn't going to satisfy--
the operational needs of CBP. That was wrong, and that won't 
happen again.
    In addition----
    Mr. Lungren. So, you say it won't happen again. How are you 
ensuring that it will not happen again?
    Mr. Stern. Thank you. This is the second part of my answer. 
It won't happen again because now we have a system in place 
that we didn't have before.
    At the Department of Homeland Security level we have 
management directive 102.01, which requires that as the system 
moves forward at each step certain things have to be met, and 
some of those include, of course, a mission statement and clear 
cooperation and coordination of those who will be the ultimate 
end users.
    Within DNDO we have devised a subsidiary system that is 
fully consistent with the Homeland Security system but is much 
more detailed so that we now have in place a system that 
assures that that mistake of lack--non-coordination as well as 
other mistakes won't happen again, and I see it as my role to 
make sure that we follow that system so that it doesn't happen 
again.
    Mr. Lungren. So if I am CBP do I wait to hear from you that 
you folks have developed a range of things that have to be 
detected, or do I come to you and say, ``In our operations we 
have determined that it would be particularly helpful if we had 
a particular technology which allowed us to uncover this kind 
of object''? See what I am saying? I am trying to find out who 
starts the process, or is it a collaborative effort from the 
very beginning, or do you have something which anticipates that 
you could have the beginnings of a concept of the need from 
either end?
    Mr. Stern. Thank you, Congressman Lungren. The process 
really begins in the interagency, particularly in the 
relationship between us at DNDO and the Department of Energy, 
where we define the threat materials--what does it look like? 
What is the level of thing that we have to find? Which 
materials? How big? What shape?
    From that we derive the technologies, working very closely 
with CBP, again, at every step, that will allow this material 
to be detected. The importance of our coordination gets more 
and more relevant as we get closer to the end goal.
    We coordinate early on--I have to say also, some of my 
first outreach efforts since I began has been to CBP. I have 
met with the commissioner, the deputy commissioner. We now have 
very good working relationships that we didn't have 2, or 3, or 
4 years ago.
    But the process is one that we work together. CBP starts it 
by defining, again, with the Department of Energy and a few 
other places, what the material is we are looking for. We work 
on devices. Once we get closer to something that is tangible 
CBP is a fundamental part of what we do.
    Mr. Lungren. Thank you. Let me, if I might, ask you about 
ASP.
    Mr. Stern. Sure.
    Mr. Lungren. We have been talking about this in this 
committee and subcommittee for what, 5 years, 6 years, 
something like that. Were we too ambitious when we hoped for 
and were told that ASP would be one of the crucial answers to 
the challenge that we had and would be used--at least as I 
understood it, would be used as primary rather than secondary--
and I know you are saying secondary is still important, but we 
were led to believe that it would be a crucial aspect of 
primary not only in terms of being able to detect more 
precisely but also to, in essence, speed up the system. At 
least that was my understanding. You can correct me if I am 
wrong.
    But again, what have we learned from that? Is it that we 
missed the mark in terms of what our ambition was? Or was it in 
terms of the concept to achieve that? Or was it a failure, 
then, if we had the proper mission, we had the proper concept, 
it was the execution of the concept?
    Because I appreciate what you say when you say, look, we 
didn't lose everything; these are still valuable. Just like you 
mentioned with respect to CAARS. We may cancel the CAARS 
program but we are still using things that we developed out of 
that, which is good--not as good as it should be, because 
presumably you want it to take care of that which you first 
designed it for.
    So in the ASP, again, were we too ambitions? Was the 
concept inappropriate? Or was it the execution of the concept 
where you find the most problem?
    Is it status accompli that ASP is only going to be used for 
secondary, or are we still envisioning the possibility of it 
being used as primary in the future?
    Mr. Stern. Thank you, Congressman Lungren. In answer to 
your first question, there are, like with the CAARS program, a 
number of lessons to be learned.
    The two of the three that you listed that I believe we 
should have learned and did learn is, No. 1, that we moved too 
aggressively. We were seeking, back in 2005 and even before, a 
quick fix, and moved too quickly through the acquisition 
program. That is, again, why--the development and acquisition 
program--and that is, again, why we have the new management 
directive and the more precise directive that I am in charge of 
at DNDO.
    The second element that rings true about the reasons are 
this lack of coordination. Just like with CAARS, we didn't have 
relations with CBP that would have allowed the process to move 
forward in a smooth way. So those are two big-picture reasons 
why the program has taken a much longer----
    There are a few other more technical reasons, which I think 
we would have reconsidered with the benefit of hindsight, one 
of which was, at the outset we required that the intellectual 
property be retained by the Government. That is a good approach 
and used in many programs, but in this case it led a number of 
the more advanced companies in the field to not participate, to 
drop out of the program. In retrospect, for this program I 
think that might have been a bad decision.
    Mr. Lungren. I guess one of the concerns you would have 
with that is if you don't retain the intellectual property with 
respect to the Government, are you talking about a question of 
security or you talking about a question of ownership and 
therefore making money on it?
    Mr. Stern. If it were a question of security it would be 
clear we would regain ownership, and of course the devices and 
things that they are detecting, they don't know. I mean, they 
don't know what they look like----
    So it is more of a commercial issue, and it is also the 
desire to not be tied to one particular supplier. If we retain 
the intellectual property rights we can have other suppliers. 
So it is not a security--the decision, as far as I understand 
it, wasn't made on security--out of security concerns.
    Mr. Lungren. Thank you. The two examples we have been 
examining here, CAARS and ASP, could, I suppose, lead you in 
one of two directions. One is that we accepted less than the 
best, or the other is the pursuit of the perfect interfered 
with us trying to deliver usable items that would 
quantitatively improve the status quo but wouldn't get to where 
some would seek, you know, perfection--100 percent, et cetera.
    How do you make sure you strike the proper balance between 
those two problems?
    Mr. Stern. Well, we work, really, on both ends, in the 
sense that we have the R&D, which, as was noted, we have become 
part of the different--part of DHS, so we can look at, if you 
will, the perfect, the longer-term, and develop that along the 
development cycle while also developing equipment that is based 
on current technology that improves, in a significant but not 
transformational way, our capability to detect threat material. 
Again, we work on both ends.
    The programs that you have listed were poorly implemented, 
and my job is to ensure that in the future we implement our 
programs in a more reasonable and more rigid way, following the 
systems that my predecessors have correctly developed.
    Mr. Lungren. Is there any analogy that is appropriate 
between this situation and the arena of cybersecurity? What I 
mean by that is, having discussions with some experts on 
cybersecurity in the private sector, they were making the point 
that you can develop something in one of two ways. You can 
develop it using operating systems that are in the commercial 
marketplace and bringing them together, integrating them in a 
certain way; or you can, from the very beginning, demand that 
they be sole idiosyncratic or sole--or require them to be 
unique such that the reality is it will take a lot longer for 
it to develop, you may scare away some potentials that are out 
there, and you may not advance as quickly as you otherwise 
would because in a sense you are reinventing the wheel or you 
are trying to go around the wheel.
    Is there anything analogous to what you do or are your 
examinations so unusual that going to conventional, 
commercial--I don't want to say off-the-shelf, but I think you 
know what I mean, that that is not possible?
    Mr. Stern. No. For certain applications it is possible and 
we are looking increasingly to commercial, off-the-shelf cut 
technology for our uses, and also in support of State and 
locals. For example, one of our newer programs that I support 
strongly is our GRaDER program, where we, working with the 
private sector, offer them a mechanism where we will test their 
devise, in essence, giving them a good-housekeeping--good 
Homeland Security--seal of approval so State and locals know 
they can buy them.
    One of the lessons from the CAARS program was that while we 
were developing our own technology the private sector made--for 
other reasons, made a leap in its capability to do some of the 
elements. So if you see a next generation of radiography, which 
again, is the objective of the CAARS program, it will be a 
combination of off-the-shelf and unique algorithms that we have 
helped devise based in part on materials that are in the 
classified form. So we certainly support using, where we can, 
off-the-shelf technology.
    The other point that you raised, being overly precise in 
your requirement, was, in fact, one of the lessons when I 
reviewed the history of the ASP problems, one of the technical 
lessons is we were too precise in things that we needed the 
companies to deliver, which would likely raise the costs and 
delay it a little bit.
    Mr. Lungren. So, you just mentioned a moment ago create a 
program dealing with local jurisdictions. Is that an 
accomplished program, or is that something you are moving to? 
If it is an accomplished program do we have any actual results 
where that has been achieved?
    Mr. Stern. Yes, well, the program requires that the 
companies being tested take on the cost of the testing, and 
that was, of course, a deterrent. We shifted a little bit so 
this year we are allowing DNDO to cover half the cost of the 
testing, and two companies have thus far signed up. I don't 
believe they have actually been tested yet, but----
    Mr. Lungren. You obviously have confidence that it is going 
to work or you wouldn't be trying it.
    Mr. Stern. Right. We think it will be a useful thing in 
particular for State and locals so they have some guidance when 
they----
    Mr. Lungren. Is there any additional or enhanced 
authorization that you need in order to carry out your 
functions right now?
    Mr. Stern. Thank you, Congressman Lungren. At this point, 
having just been here for a month and a half, my answer has to 
be no. As you know, an important part of the Global Nuclear 
Detection Architecture--one of the unique features is most of 
the thing that we are responsible for running, implementing, 
coordinating falls under the authority of other agencies, so 
there is, of course, an inherent challenge.
    But I have found in the month-and-a-half I have been here 
such incredible support and good will from all of the agencies 
and the--such strong support from the White House that I am 
confident that we will be able to work--and accomplish the 
objectives we need to without additional authority.
    Mr. Lungren. Okay. Well, I would just hope that you would 
keep in mind that this committee stands ready to assist you, 
and even though you find a number of these component parts the 
jurisdiction of other agencies and you are supposed to sort of 
put them together, sometimes we might be able to assist on 
that, and again, I hope that you would keep us properly 
informed so that if a gentle nudge is needed--or even a strong 
nudge is needed--that we would know about it sooner rather than 
later.
    Mr. Stern. I very much appreciate that offer and I intend 
to keep in close contact with you and your staff so that you 
know what is going on at DNDO and can make decisions----
    Mr. Lungren. Thank you very much.
    Thank you, Madam Chairwoman.
    Ms. Clarke. Thank you, Ranking Member.
    Mr. Stern, I found one part of your testimony almost 
incredible: 100 percent of the international general aviation 
flights are scanned for radiological and nuclear materials by 
CBP upon arrival in the United States. We have been under the 
impression that general aviation was actually a threat vector 
which we had nearly zero coverage.
    Am I understanding your statement correctly that we now 
have this security gap closed?
    Mr. Stern. That particular gap is closed. That statement is 
accurate. There are other issues we have with the architecture, 
although I would feel more comfortable discussing those gaps or 
those issues in a different setting.
    Ms. Clarke. Very well. Mr. Stern, I would like to give you 
an opportunity to tell this subcommittee what new directions 
you believe are important. What drives you? What do you want to 
achieve? What things do you think this subcommittee should be 
aware of or focus on?
    Mr. Stern. Thank you, Chairwoman Clarke. What drives me is 
the ability to look at the mistakes that have been made in the 
past and try and correct them, to look at the events that have 
occurred in Europe with illicit trafficking and see how that 
can guide us in our architecture at home. That is a process we 
have begun and actually will never end, but it is an 
intellectual challenge which will help ensure that we do the 
right thing in our architecture at home, so that is what drives 
me.
    I see and believe that one of the outcomes--one of the 
results--will be--of this relook--will be that we shouldn't 
focus as much on borders as we have but need to look within the 
country for mechanisms for detecting nuclear and radioactive 
material, which means working very closely with State and local 
officials so that there is, you know, effective, ultimately, 
detector on every block and every policeman can have a 
manageable detector that will identify threat material.
    We are not there yet, either in terms of research and 
development or in terms of actual deployment, but those are the 
directions I want to go, and again, I am working on the 
architecture, taking advantage of the lessons we have learned 
and supporting State and local officials.
    Mr. Lungren. Can I just follow up on that?
    Mr. Stern. Sure.
    Mr. Lungren. Is that truly your vision, that we would have 
that massive proliferation of devices so that we would have 
that capability throughout the country?
    Mr. Stern. That is illustrative. I mean, I can certainly 
see and would hope in the future--I can't tell you when; 2 
years, 10 years, 30 years--that every police officer would have 
a device that would allow him, in the course of his normal 
investigation, whether it is a drug bust or some other type 
event, to, you know, whether there is nuclear or radioactive 
around, we can't have--we need to close all of our gaps. We 
can't assume that we will find materials at the borders, so if 
we have to assume that the material will be in the United 
States we need to do what we can----
    Mr. Lungren. No, I agree that would be the perfect world. I 
am just trying to make sure that you think that is a practical 
goal, because if it is that would guide us in certain 
decisions; if it is not, other decisions.
    I guess what I am saying is, can you envision that not only 
we could do that technologically, not only could we do it with 
a scaling-down of the size of the instruments necessary so, in 
fact, an officer could have a readily available piece of 
equipment, but also in terms of the cost? Because if that is a 
reasonable objective then we move in that direction and we 
commit resources to that. If that is not, particularly the last 
part of it, then we could spend a lot of time trying to devise 
something that in the end we would never be able to make the 
commitment to.
    Maybe it is so early that it is--in your tenure and early 
in the concept that that is an unfair question, but I would 
just like your observations on that, if you don't mind.
    Mr. Stern. Thank you, Congressman. It is not practical 
today, but I was asked about my vision.
    I can see, as we drive down the cost of detectors--right 
now, one of the biggest problems is size--the size of 
detectors. As we increase the accuracy of the detectors and the 
ability to specify threat material, sure, in the future, 
without, again, specifying a date, it is a possibility.
    While I said every cop, well that may be every other cop, 
or every 10 cops. Of course, in New York, under the Securing 
the Cities program, a very large number--and I can't tell you 
offhand how many--but a very large number of police officers do 
have chirpers and handheld devices. So it is not an outlandish 
concept. It is reaffirmation that I believe we need to focus 
internally with State and local officials and see where the 
analysis takes us----
    Mr. Lungren. The other thing I would just ask you about is 
I have some people very, very much involved in interstate 
protocol--Internet Protocol version 6, and one of the things 
they tell me is if we move to that we will have almost--I have 
heard someone say we will have, but I have been corrected by 
others who say an almost infinite number of locations on the 
internet, and that that will allow us--as they would tell me, 
you could put sensors every 2 feet along the southern border. 
You could have sensing devices on every road in America.
    When I start to envision that world what you just said--the 
concept you just had--develops greater credibility. That is, 
maybe not handheld devices but--with every officer, but you 
could have them located on street corners, and yet you could 
have them interconnected by way of the internet, which would 
allow for this kind of advanced warning or something.
    So I just find it intriguing that you mentioned that 
because there are things that we have never considered 
possibilities for in terms of detection--and of course--the 
question of privacy rights and so forth.
    But it is a whole different world than we have ever thought 
of before, and I was just thinking, as you have your vision, if 
you have that kind of a backbone to such a system you make it 
far more credible than, I guess, under present circumstances 
one would envision. So appreciate what you are talking about on 
that.
    Ms. Clarke. Director Stern, was there anything further that 
you didn't cover that you would like to add at this time?
    Mr. Stern. No. Again, I appreciate the opportunity to speak 
with you today. It is a real opportunity to hear your concerns 
and to let you know where I think I would like to take DNDO, 
and just welcome to work with you.
    Ms. Clarke. Well, thank you very much. I, too, am intrigued 
by your vision.
    Ranking Member Lungren, as you well know, as we do the work 
that we do with this subcommittee there could very well be an 
app for that not too long from now.
    So I want to thank the witness for your valuable testimony 
here today.
    Thank you, Ranking Member, for making it in the nick of 
time. If you have any questions--any additional questions--for 
Mr. Stern, and I do too, I will make sure that we ask, that you 
respond expeditiously in writing to those questions.
    So, hearing no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 3:14 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
